TN

@OCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga | B rt iefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No, 19-532
UNITED STATES OF AMERICA,
Petitioner,

v.
STATE OF CALIFORNIA, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 22nd day of November, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICI CURIAE OF CALIFORNIA MUNICIPALITIES
AND ELECTED OFFICIALS IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served
have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DALE L. WILCOX LAWRENCE J. JOSEPH
IMMIGRATION REFORM Counsel of Record
LAW INSTITUTE 1250 Connecticut Av NW
25 Massachusetts Av NW Suite 700-1A
Suite 335 Washington, DC 20036
Washington, DC 20001 (202) 355-9452
(202) 232-5590 lj@larryjoseph.com

dwilcox@irli.org

Subscribed and sworn to before me this 22nd day of November, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

serait » CCl Ondeaw-h, ly

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38969
Service List
United States v. California, No. 19-532 (U.S.)

Counsel for Petitioner:

Hon. Noel J. Francisco

Solicitor General

United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

Tel: 202-514-2217

Email: SupremeCtBriefs@USDOJ.gov

Counsel for Respondents:

Aimee Athena Feinberg
California Department of Justice
1300 I Street

Sacramento, CA 95814

Tel: 916-210-6003

Email: Aimee. Feinberg@doj.ca.gov
